Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
U.S. House of Representatives



For Release on Delivery
Expected at
2:00 p.m. EST
                          Observations on
                          Current and Future
Wednesday
June 21, 2006
CC-2006-031

                          Efforts to Modernize
                          the National Airspace
                          System


                          Statement of
                          Todd J. Zinser
                          Acting Inspector General
                          U.S. Department of Transportation
Mr. Chairman and members of the Subcommittee:

We appreciate the opportunity to testify on the Federal Aviation Administration’s
(FAA) Joint Planning and Development Office (JPDO) and the plans for the next
generation air transportation system. Secretary Mineta has made these efforts a
top priority.

The JPDO was mandated by Congress to develop a vision for the next generation
air transportation system (NGATS) in the 2025 timeframe and coordinate diverse
agency research efforts.       This office was established within FAA; also
participating are the National Aeronautics and Space Administration (NASA), the
Department of Commerce, the Department of Defense (DOD), and the Department
of Homeland Security. Thus far, we have focused primarily on the JPDO’s air
traffic management efforts that involve NASA, DOD, and Commerce.

There are a number of compelling reasons for moving toward the next generation
air transportation system. The current air transportation system has served the
nation well, but FAA reports that the current system (or business as usual) will not
be sufficient to meet the anticipated demand for air travel. Last year, over
700 million passengers used the system, and this number is forecasted to grow to
over 1 billion by 2015.

Because of the forecasted growth in air travel, the JPDO needs to continue to work
on what can be done much sooner than the 2025 timeframe. Moreover, it will be
important for the JPDO to show tangible benefits to airspace users from its efforts.
We have made this point before, and it was a key theme from the JPDO/industry
workshop on costs in April.

Moreover, the JPDO’s mission is critical given that FAA conducts little long-term
air traffic management research and the fact the most of the Agency’s current
$2.5 billion capital account goes for keeping things running. However, the cost of
NGATS remains uncertain and much work remains to refine costs, align diverse
agency budgets, and set expectations for airspace users with respect to milestones,
equipage, and anticipated benefits. In addition, we have identified a range of
actions that will help FAA and JPDO transition from planning to implementation.

As requested by this Subcommittee, my remarks today will focus on three points:

   • FAA’s fiscal year (FY) 2007 budget request for its Facilities and
     Equipment (F&E) account and progress and challenges with key
     modernization projects,

   • JPDO progress to date in aligning agency budgets and plans, and


                                                                                  1
   • actions that will help the JPDO keep moving forward in both the short and
     long term and shift from planning to implementation.

Perspectives on FAA’s Capital Account and Progress and Challenges
with Key Modernization Projects
FAA’s capital account—or the F&E account—is the principal vehicle for
modernizing the National Airspace System. It represents about 18 percent of the
Agency’s FY 2007 budget request of $13.7 billion. For FY 2007, FAA is
requesting $2.5 billion for the F&E account, which is $50 million less than last
year’s appropriation. This is the fourth consecutive year that funding requests for
the capital account are below authorized levels called for in Vision 100. We
understand that the House Appropriations Committee has recommended
$3.1 billion in FY 2007 for FAA’s capital account, which would represent an
increase of about $600 million from last year’s funding and is the same as the
authorized level.

As we have noted in previous reports and testimonies, FAA’s increasing operating
costs have crowded out funds for modernization. Further, only about 55 percent
of FAA’s FY 2007 request for F&E (or $1.4 billion) will actually go for acquiring
air traffic control systems, while the remainder will be spent on personnel, mission
support, and facilities. This is illustrated in Figure 1.




As we have noted in the past, the majority of FAA’s capital account now goes for
keeping things running (i.e., sustainment), not new initiatives. A review of the top
10 projects by dollar amount in the FY 2007 request shows that while some


                                                                                  2
projects will form the platforms for future initiatives, the bulk of funds are
requested for projects that have been delayed for years and for efforts to improve
or maintain FAA facilities or replace existing radars.

Over the last several years, FAA has deferred or cancelled a number of projects as
funding for the capital account has remained essentially flat. This includes efforts
for a new air-to-ground communication system, controller-pilot data link
communications, and a new satellite-based precision landing system. FAA has
also postponed making decisions on projects like the billion-dollar Standard
Terminal Automation Replacement System.

In spite of a lack of clarity about the next generation system, FAA is requesting
F&E funds for two projects that are considered “building blocks” for the next
generation system. These are not new programs and have been under
development or been funded in previous budgets.

   • Automatic Dependent Surveillance-Broadcast (ADS-B) is a satellite-based
     technology that allows aircraft to broadcast their position to others. In
     FY 2007, FAA is requesting $80 million for this. In prior budgets, ADS-B
     was funded under the Safe Flight 21 Initiative, which demonstrated the
     potential of ADS-B and cockpit displays in Alaska and the Ohio River
     Valley. FAA expects to make a decision about how quickly to implement
     ADS-B nationwide and at what cost later this year. Airspace users will
     have to equip with new avionics to get benefits, and FAA may have to rely
     on a rulemaking initiative to help speed equipage. This illustrates why the
     JPDO must address complex policy issues as well as research.

   • System Wide Information Management (SWIM) is a new information
     architecture that will allow airspace users to access securely and seamlessly
     a wide range of information on the status of the National Airspace System
     and weather conditions. It is analogous to an internet system for all
     airspace users. FAA is requesting $24 million for this program in FY 2007.

Progress and Challenges with Key Air Traffic Control Modernization
Projects. We are not seeing the massive cost growth and schedule delays we have
seen with FAA major acquisitions in the past. This is the result of this
Administration’s more incremental approach to major acquisitions and decisions
to defer several complex and challenging efforts.




                                                                                  3
Last year, we reported that 11 of 16 major acquisitions accounted for cost growth
of $5.6 billion. 1 Most of this cost growth occurred before the establishment of the
Air Traffic Organization. The cost growth was also a reflection of efforts to re-
baseline programs, which identified costs that had been pent up for years and not
reflected in prior cost estimates. At the request of this Subcommittee, we are
updating our work on the 16 major acquisitions and the challenges they face.

Many efforts are maturing, and completing them within existing cost and schedule
parameters is critical to allow room for future initiatives. Only one ongoing
modernization project, FAA Telecommunications Infrastructure, has the potential
to reduce FAA’s operating costs, which is a top priority within the Agency. We
would like to highlight two multi-billion-dollar programs that require attention.

      • En Route Automation Modernization (ERAM) is intended to replace the
        Host computer network—the central nervous system for facilities that
        manage high-altitude traffic. FAA is requesting $375.7 million for ERAM,
        which is this program’s peak single-year funding level according to FAA’s
        Capital Investment Plan. With an acquisition cost of $2.1 billion, this
        program continues to be one of the most expensive and complex
        acquisitions in FAA’s modernization portfolio. The monthly burn rate for
        ERAM will increase from $28 million a month in FY 2006 to $31 million
        per month in FY 2007. This year is critical for ERAM because the system
        is scheduled to begin real-world testing. Should ERAM experience cost
        increases or schedule slips, the problems would have a cascading impact on
        other capital programs and directly affect the pace of efforts to transition to
        the next generation system.

      •   FAA Telecommunications Infrastructure (FTI).           FAA is requesting
          $28 million in FY 2007 for its effort to replace its entire
          telecommunications system for air traffic control. In a recently issued
          report to FAA, we concluded that FTI is a high-risk program—with a
          lifecycle cost estimate of $2.4 billion ($310 million estimated acquisition
          costs and $2.1 billion estimated operations costs) through 2017, 5 years
          longer than originally planned. 2 We also concluded that FAA is unlikely to
          meet its December 2007 revised completion date. In fact, only months after
          being re-baselined in December 2004, the program began falling behind its
          site acceptance schedule and has not recovered.


1
    OIG Report Number AV-2005-061, “Report on the Status of FAA’s Major Acquisitions: Cost Growth
    and Schedule Delays Continue To Stall Air Traffic Modernization,” May 26, 2005. OIG reports and
    testimonies can be found on our website: www.oig.dot.gov.
2
    OIG Report Number AV-2006-047, “FAA Telecommunications Infrastructure Program: FAA Needs To
    Take Steps To Improve Management Controls and Reduce Schedule Risks,” April 27, 2006.


                                                                                                 4
           After site acceptance, three other critical steps are required to transition FTI
           services into the National Airspace System and begin achieving cost
           savings. We concluded that FTI is not likely to be completed on time
           because FAA has not developed a detailed, realistic master schedule for all
           critical steps, including identifying when each service will be accepted,
           when services will be cut over to FTI, and when existing (legacy) services
           will be disconnected. Further, until FAA develops a realistic master
           schedule, it will be difficult to obtain a binding commitment from the FTI
           contractor to complete the transition by December 2007.

           The primary purpose of the FTI program is to lower operating costs, which
           depends on deploying the system on schedule. However, expected benefits
           from reducing operating costs are eroding because of schedule problems.
           For example, FAA did not realize $32.6 million in expected reduced
           operating costs in FY 2005 due to the limited progress made in
           disconnecting legacy circuits. Additionally, unless FAA accelerates FTI
           service cutover and legacy circuit disconnect rates substantially (almost
           10-fold over FY 2005), the Agency will not realize about $102 million in
           estimated cost savings for FY 2006.

           We recommended, among other things, that FAA develop a master
           schedule and an effective FTI transition plan and validate FTI cost,
           schedule, and benefits. FAA agreed with our recommendations and has
           commissioned the MITRE Corporation 3 to conduct an independent
           assessment of FTI’s schedule and transition performance to date. We are
           conducting a follow-up review to assess FAA’s response to our
           recommendations and efforts to get FTI on track.

It is important to recognize that FAA’s existing investments will heavily influence
NGATS requirements and schedules. In fact, ongoing projects, like ERAM and
FTI, will form important platforms for JPDO initiatives. Enclosure A provides
details on selected modernization projects that will likely play a key role in
moving toward the next generation system. FAA will have to assess how JPDO
plans affect ongoing projects and determine which ones need to be accelerated or
re-scoped.

Progress Is Being Made in Coordinating Diverse Agency Efforts but
Considerable Work Remains To Align Agency Budgets and Plans
The law requires the JPDO to coordinate and oversee research that could play a
role in NGATS. Central to the JPDO’s mission—and making it an effective multi-
agency vehicle—is alignment of agency resources. This is a complex task, and the

3
    The MITRE Corporation functions as FAA’s federally funded research and development center.


                                                                                                 5
law provides no authority for the JPDO to redirect agency resources. Enclosure B
provides information on potential agency contributions to the JPDO and each
agency’s area of expertise.

The Secretary of Transportation has played an important role in coordinating
various efforts by chairing the Senior Policy Committee. This committee was
established by Vision 100 and includes, among others, deputy secretary level
representatives from the Departments of Commerce and Homeland Security, as
well as the Secretary of the Air Force. It also includes the FAA and NASA
Administrators. This committee provides high-level guidance, resolves policy
issues, and identifies resource needs. Each participating agency conducts research
tailored for its specific mission.

The JPDO’s March 2006 progress report to Congress outlined various
accomplishments to date, including the establishment of multi-agency teams and
the NGATS institute (a mechanism for interfacing with the private sector) as well
as a demonstration of network-enabled operations for security purposes.
However, the report did not provide details on specific ongoing research projects
at FAA or funding that the JPDO expects to leverage at other agencies. Without
this information, it is difficult to assess progress with alignment of budgets.

The majority of JPDO’s work is done through eight Integrated Product Teams
(IPTs) that focus on eight strategies, such as how to use weather information to
improve the performance of the National Airspace System. The teams are
composed of members from FAA, other Federal agencies, and the private sector.
Attachment C provides information on the JPDO’s IPTs.

The National Research Council recently examined JPDO plans and was critical of
the IPT structure. The Council’s report found that even though the teams have
multi-agency participation, they are functioning primarily as experts in specific
disciplines rather than as cross-functional, integrated, multidisciplinary teams
organized to deliver specific products. One of the report’s recommendations was
that the IPTs be reduced in number and made more “product driven.” Although
we have not reached any conclusions on how to best structure the IPTs, we do
agree that a more product-driven focus would be an important step forward.

Our audit work on three IPTs shows that there is considerable coordination but
little alignment of agency budgets to date. Moreover, the IPT leaders have no
authority to commit agency resources to JPDO efforts and often have no products
other than plans. The following illustrates progress and challenges to date with the
three IPTs we examined in detail.




                                                                                  6
      • The Weather IPT is led by the National Oceanic Atmospheric
        Administration (NOAA), an agency of the Department of Commerce.
        FAA, NASA, DOD, and NOAA are all conducting weather research
        tailored for their specific missions. Thus far, this team’s efforts have
        focused on contributions to FAA’s Traffic Flow Management Program
        (which assists traffic managers to optimize air traffic by working with
        airlines). NOAA is also helping the JPDO refine its concept of a fully
        automated system. Integrating new, up-to-date weather forecast systems
        into planned automation efforts will be challenging.

          We note that JPDO has not yet determined if a considerable amount of
          applied research and development conducted by NOAA at the Office of
          Atmospheric Research and the National Environmental Satellite Data and
          Information Service could be leveraged for next generation initiatives. We
          have shared our concerns about taking full advantage of weather research
          conducted by others with the JPDO, which recognizes it can do a better job.

      • The Shared Situational Awareness IPT is led by DOD. All participating
        agencies are adopting network-centric systems. 4 As noted earlier, FAA is
        developing its own network system called SWIM. While there are
        considerable opportunities for leveraging net-centric efforts, there is also
        potential for duplication of effort. Challenges here focus on taking an
        approach pioneered by DOD and applying it specifically to air traffic
        control to get benefits in terms of enhanced capacity and delay reduction.

          An active role by DOD is vital because it is both a provider and a consumer
          of air traffic services. Thus far, work with this IPT has focused almost
          exclusively on maximizing agency network capabilities in DOD, such as
          the Global Information Grid, which is a net-centric communication system
          DOD is developing for global use. Moreover, DOD’s real-world
          experiences and lessons it has learned in sharing data (from air and ground
          systems) in actual operations and in real-time have not been fully tapped
          and will prove invaluable in reducing cost and technical risks in developing
          the next generation system.

      • The Air Traffic Management IPT is led by NASA. It is expected to play a
        key role by helping develop the automated systems to boost controller
        productivity. The bulk of this work will be funded by NASA, which has
        conducted the majority of long-term air traffic management research over


4
    A net-centric system uses internet protocols to transfer data.



                                                                                    7
          the last few years. 5 FAA has neither planned nor budgeted for this type of
          research. Major challenges focus on establishing requirements and gaining
          a full understanding of the risks associated with developing and acquiring
          these new software-intensive systems before making financial
          commitments. This is important because future automation efforts will be a
          major cost driver for the next generation system.

          We see potential for the most progress with coordination and alignment
          between the JPDO and NASA. Even though NASA is restructuring its
          aeronautical research program and spending less than in the past, the JPDO
          and NASA are working on several complex concepts for new automation
          systems (for monitoring multiple aircraft trajectories, tracking separation
          minima, and responding to weather events) and the timing of research
          efforts. This work will be funded via NASA efforts on “airspace systems”
          (with a FY 2007 requested funding level of $120 million). However,
          experience shows that NASA will need a much clearer picture of FAA’s
          requirements to better support the next generation system.

Several Actions Are Critical for the JPDO To Make Progress in Both
the Short and Long Term and Make the Transition From Planning to
Implementation
Key questions for FAA and the JPDO focus on what the new office can deliver,
when, and how much this transition will cost. They are central questions in the
discussion about how to best finance FAA and will shape the size, requirements,
and direction of the capital program for the next decade.

Moving to the next generation system is important to meet the demand for air
travel, change the way FAA provides services, and help control operating costs.
However, it is also a high-risk effort.

To make progress and successfully shift from planning to actual implementation,
several steps are needed. We been reviewing progress to date with the JPDO at
the request of this Committee since last fall, and we have not seen substantial
progress in a number of areas.

      • Leadership. The position of the JPDO Director is currently vacant—FAA
        needs to find the right person to lead this effort. Leadership will be
        important to align diverse agency efforts and bridge the gap between the


5
    For additional details on the FAA/NASA relationship and funding profiles, see our testimony entitled
    “Observations on the Progress and Actions Needed To Address the Next Generation Air Transportation
    System,” (CC-2006-032, March 29, 2006).


                                                                                                           8
   Air Traffic Organization’s (ATO) near-term planning horizon and the
   JPDO’s longer-term mission to transform the National Airspace System.

• Finalizing Cost Estimates, Quantifying Expected Benefits, and Developing
  a Roadmap for Industry. The JPDO’s progress report to Congress was
  silent on funding requirements and complex transition issues. Moving to
  the next generation system will require significant investments from FAA
  (new ground systems) and airspace users (new avionics). FAA is
  conducting workshops with industry to develop program costs.

   We have seen some preliminary estimates developed by the ATO and a
   working group of FAA’s Research, Engineering, and Development
   Advisory Committee (REDAC), but they have not been finalized or
   approved by senior FAA management. There are considerable unknowns,
   and costs depend on, among other things, performance requirements for
   new automation and weather initiatives and to what extent FAA intends to
   consolidate facilities.

   A key short-term cost factor for NGATS is the level of development
   funding that will be required to take efforts from other agencies (like
   NASA) and successfully transition them into the National Airspace System
   and meet FAA’s safety and certification requirements. The REDAC
   working group is raising concerns about this in light of NASA’s
   restructuring of its aeronautics research portfolio and plans to focus on
   more basic research. To accommodate changes in NASA investments, the
   REDAC working group estimated in its draft report that approximately
   $100 million annually for development funding will be needed.

   FAA will have to analyze information from the JPDO/industry workshops
   and the REDAC working group and provide Congress with expected
   funding requirements and when the funding will be needed. When
   transmitting this information to Congress, FAA should clearly differentiate
   between funding adjustments for existing projects and funds specifically for
   NGATS initiatives. This will give decision makers a clear understanding of
   NGATS costs.

   An important theme from the recent JPDO workshop focuses on need for
   FAA to clearly define the expected benefits from NGATS initiatives,
   particularly for projects that require airspace users to install and equip with
   new avionics, such as ADS-B. Airspace users have a much shorter horizon
   for the return on investment from new systems than FAA, and incentives
   (i.e., tax incentives, financing options, or targeted deployments for users
   that equip early) will likely be needed to spur equipage.


                                                                                9
   At the April workshop, industry participants asked FAA for a “service
   roadmap” that (1) specifies required equipage in specific time increments,
   (2) bundles capabilities with clearly defined benefits and needed
   investments, and (3) uses a 4- to 5-year equipage cycle that links with
   aircraft maintenance schedules. It will be important for FAA to provide
   industry with this information.

• Establishing Connectivity Between JPDO Plans and ATO Efforts. This is
  important because the JPDO, as currently structured, is a planning and
  coordinating organization—not an implementation or program-execution
  office. At the April JPDO/industry workshop, industry asked for a much
  stronger link between ATO and JPDO plans.

   Although the JPDO’s progress report discusses new capabilities such as
   ADS-B and SWIM, the ATO is responsible for managing those efforts as
   well as establishing funding levels, schedule, and performance parameters.
   The ADS-B and SWIM projects are not yet integrated into ongoing
   communications and automation efforts but need to be. If the JPDO and
   ATO are not sufficiently linked and clear lines of accountability are not
   established, cost and schedules for NGATS will not be reliable and
   expected benefits will be diminished or postponed.

   Linking JPDO and ATO efforts is challenging because NGATS projects,
   like SWIM and ADS-B, cut across the ATO’s different lines of business
   (i.e., terminal and en route) and will require adjustments to ongoing
   projects managed by different ATO vice presidents.

   For example, SWIM is envisioned as an Agency-wide effort, and planning
   documents show that SWIM will interface with at least 12 ongoing
   projects, including FTI which is managed by the Vice President for
   Technical Operations. Also, SWIM will need to be integrated with ongoing
   projects to revamp systems for controlling high-altitude traffic managed by
   the Vice President for En Route and Oceanic Services. Projects managed
   by the Vice President for Terminal Services (to modernize controller
   displays used in the vicinity of airports and weather systems) will also be
   affected. It will be important to establish clear lines of accountability for
   linking JPDO efforts to ATO programs and resolving differences between
   the two organizations.

   We shared our concerns about effectively linking the JPDO and ATO and
   establishing clear lines of accountability with the Chief Operating Officer
   and the Acting Director for ATO Planning. They recognize the need for


                                                                             10
          close coordination and are examining ways to better link the two
          organizations. One step that is underway is to adjust the Operational
          Evolution Plan (the Agency’s capacity blueprint) to reflect JPDO efforts.
          This is an important matter that will require sustained management
          attention.

      • Developing and Implementing Mechanisms for Alignment. As noted
        earlier, there is considerable coordination among JPDO participating
        agencies but little alignment of budgets and plans. There is a need for
        mechanisms to help the JPDO align different agency efforts over the long
        haul. This will help identify the full range of research that can be leveraged
        by the JPDO—not how much NGATS will cost to implement.

          The JPDO recognizes that more needs to be done and is working with the
          Office of Management and Budget (OMB) to develop an integrated budget
          document that provides a single business case (a document similar to the
          “OMB Exhibit 300”) to make sure efforts are indeed aligned. 6 As part of
          this, the JPDO has promised to provide OMB this summer with an
          architecture for the next generation system, as well as a specific list of
          programs in other agency budgets it intends to leverage.

          The JPDO’s ongoing efforts to develop an enterprise architecture, 7 or
          overall blueprint for the next generation system, will help in setting goals,
          supporting decisions, adjusting plans, and tracking agency commitments.
          The architecture will also show requirements from FAA and the
          Departments of Defense and Homeland Security and where various agency
          efforts fit in the next generation system. It will prove helpful in the future
          in resolving difficult policy decisions, including who pays for what
          elements of the system.

          The JPDO is taking an incremental approach to architecture development
          and plans to have an initial version this summer. However, considerable
          work remains to link current systems with future capabilities and develop
          technical requirements, particularly for new concepts for automation.

          Until these actions are taken, it will be difficult for the Congress and
          aviation stakeholders to determine if the JPDO is leveraging the right
          research, if funding is adequate for specific efforts, or how projects will

6
    OMB Exhibit 300 was established by OMB as a source of information on which budgetary decisions
    could be based so that they are consistent with Administration and OMB policy and guidance.
7
    Enterprise Architecture links an organizations strategic plan to the programs and supporting systems in
    terms of interrelated business processes, rules, and information needs. This includes the transition from
    the “as-is” to the “to-be” environment.


                                                                                                         11
   improve the U.S. air transportation system and at what cost. Therefore, we
   think the JPDO should include in its periodic reports to Congress a table of
   specific research projects with budget data for FAA developmental efforts
   as well as budget data of other agencies it is leveraging and how that
   ongoing research is supporting the JPDO.

• Developing Approaches for Risk Management and Systems Integration.
  Given that the transition to NGATS is a high-risk effort potentially
  involving billions of dollars, the JPDO and FAA need to articulate how
  problems that affected past modernization efforts will be mitigated and
  what specific skill sets will be required. The JPDO’s recent progress report
  did not address this issue.

   The central issue focuses on what will be done differently from past
   modernization efforts with NGATS initiatives (other than conducting
   demonstration projects) to ensure success and deliver much needed benefits
   to FAA and airspace users. FAA faces a wide range of risks, such as
   complex software development and complex systems integration and
   engineering challenges with NGATS initiatives (such as SWIM and ADS-
   B) and existing FAA projects.

   To help manage the transition to the next generation system, FAA is
   considering whether or not a lead systems integrator—a private contractor
   who would help link new and existing systems and help manage other
   contractors—will be required. DOD has relied on this approach for
   complex weapon systems. Models for using a lead system integrator
   throughout the Government differ with respect to roles and responsibilities.
   We note that FAA has relied on systems engineering and integration
   contractor in the past to help integrate modernization projects, but questions
   about the roles, responsibilities, and expected costs will need to be
   examined.

• Clarifying Approaches for Industry Participation. The JPDO established
  the NGATS institute specifically to allow for industry participation in
  shaping the next generation air traffic management system. Currently,
  industry representatives are participating in JPDO IPTs. For example, the
  JPDO’s progress report noted that over 140 industry and private sector
  participants (from 66 organizations) are involved in IPT planning efforts.

   Industry has expressed concern that participation in JPDO activities might
   preclude them from bidding on future FAA acquisitions related to NGATS
   because it may create an organizational conflict of interest. Generally
   speaking, FAA’s Acquisition Management System (AMS) precludes


                                                                              12
   contractors from competing on production contracts if the contractor either
   participated in or materially influenced the drafting of specifications to be
   used in future acquisitions for production contracts or had advanced
   knowledge of the requirements.

   FAA is aware of industry’s concern and is working to ensure that industry
   participation does not result in organizational conflicts of interest. Last
   week, the JPDO revised the contracting mechanism with the institute to
   address this issue. Specifically, the JPDO and the institute have committed
   to develop procedures to (1) identify information that might later give rise
   to organizational conflict of interest concerns, (2) mitigate or eliminate
   resultant concerns, and (3) foster continued awareness of conflicts of
   interest and methods to avoid them. Putting these procedures in place will
   help get and sustain the desired expertise from industry and help prevent
   problems in the future.

• Examining and Overcoming Barriers to Transforming the National
  Airspace System That Have Affected Past FAA Programs. Our work on
  many major acquisitions shows the importance of clearly defined transition
  paths, expected costs (for both FAA and airspace users), and benefits in
  terms of reduced delays. This is particularly the case for initiatives that
  require airspace users to equip with new avionics.

   For example, FAA cancelled the controller-pilot data link communications
   program specifically because of uncertain benefits, concerns about user
   equipage, cost growth, and the impact on the Agency’s operations account.
   The inability to synchronize data link with other modernization efforts,
   such as the multi-billion-dollar ERAM program, was also a factor.

   Other critical barriers to be overcome include how to ensure new systems
   are certified as safe for pilots to use and getting the critical expertise in
   place at the right time. Problems with FAA’s multi-billion-dollar Wide
   Area Augmentation System (a new satellite navigation system) were
   directly traceable to problems in certifying the new satellite-based system.
   FAA’s certification workforce has participated in IPT meetings, but
   considerable work remains to determine how air and ground components
   will be certified and the corresponding impact on requirements. This is a
   complex task. We agree with industry that FAA’s certification workforce
   needs to be actively engaged with JPDO initiatives.

• Developing a Strategy for Technology Transfer. Technology transfer—the
  movement of technology from one organization to another—is a central
  issue for the JPDO because the law envisions new capabilities developed


                                                                             13
           by other Federal agencies (or the private sector) being transitioned into the
           National Airspace System. The JPDO will have to pay greater attention to
           this matter as it moves forward to reduce development times with NGATS
           initiatives.

           Our past work shows that FAA has experienced mixed results in
           transitioning systems developed by others into the National Airspace
           System. For example, FAA ultimately abandoned work on a new controller
           tool developed by NASA (the Passive Final Approach and Spacing Tool)
           for sequencing and assigning runways to aircraft because of complex
           software development and cost issues.

           As we noted in our review of FAA’s Free Flight Phase 1 Program, the use
           of “technology readiness levels” could be useful to help assess maturity of
           systems and ease issues associated with the transfer of technology. 8 Both
           NASA and DOD have experience with categorizing technical maturity.
           This could help reduce cost, schedule, and technical risk with implementing
           JPDO initiatives.

      • Conducting Sufficient Human Factors Research To Support Anticipated
        Changes. The JPDO is planning to make fundamental changes in how the
        system operates and how controllers manage traffic to accommodate three
        times more aircraft in the system. Currently, the union that represents
        controllers is not yet participating in JPDO efforts for a variety of reasons
        but needs to be.

           History has shown that insufficient attention to human factors can increase
           the cost of acquisition and delay much needed benefits. For example,
           problems in the late 1990s with FAA’s Standard Terminal Automation
           Replacement System were directly traceable to not involving users early
           enough in the process.

           The need for focused human factors research extends well beyond the
           traditional computer-machine interface (such as new controller displays)
           and has important workforce and safety implications. For example, FAA
           expects the controller’s role to change from direct, tactical control of
           aircraft to one of overall traffic management. There also will be significant
           human factors concerns for pilots, who will be expected to rely more on
           data link communications. It will be important to have sufficient human


8
    OIG Report Number AV-2002-067, “Free Flight Phase 1 Technologies: Progress to Date and Future
    Challenges,” December 14, 2001.


                                                                                                    14
      factors analysis and studies to ensure that the changes envisioned by the
      JPDO can be safely accommodated.

                                    - - -

Mr. Chairman, that concludes my statement. I would be happy to answer any
questions you or other members of this Subcommittee might have.




                                                                            15
                                                                            Enclosure A

Key Platforms

       System                                 Status and Key Issues
 Terminal                  FAA has struggled with how to complete terminal
 Modernization:            modernization. STARS, which so far has cost $1.3 billion for
 Standard Terminal         only 47 sites, was envisioned as the centerpiece of terminal
 Automation                modernization. Because of technical problems and schedule
 Replacement System        delays with STARS, FAA decided to deploy another system,
 (STARS), Common           Common ARTS, as an interim solution at over 140 facilities in
 Automated Radar           several configurations. FAA is rethinking its approach to
 Terminal System           terminal modernization and recently decided to field STARS to
 (Common ARTS):            only five additional sites. A decision affecting the remaining
 Controller work-          100-plus sites has been postponed for over a year. FAA needs
 stations that process     to resolve how it will complete terminal modernization and
 surveillance data and     what additional capabilities will be needed as it works with the
 display it on the         JPDO.
 screen to manage air
 traffic in the terminal
 environment.
 En Route                  With an estimated cost of $2.1 billion, ERAM is one of the
 Automation                largest and most complex acquisitions in FAA’s modernization
 Modernization             portfolio. Progress is being made with the first ERAM
 (ERAM):                   deliverable—a backup system for the Host computer.
 Replaces the Host         However, the bulk of the work focuses on development of the
 computer hardware         first major ERAM software release, which involves developing
 and software              over 1 million lines of code. A number of new capabilities
 (including the Host       (e.g., dynamic airspace management and data link) depend on
 backup system) and        future enhancements to ERAM that have yet to be defined or
 associated support        priced.
 infrastructure at
 20 En Route Centers.




                                                                                        16
                                                                              Enclosure A

Key Platforms (continued)

       System                                 Status and Key Issues
 FAA                       FTI is FAA’s effort to transition from multiple telecom-
 Telecommunications        munication networks to a single new network for the purpose
 Infrastructure            of reducing operating costs. FTI is expected to replace about
 (FTI): replaces           25,000 existing telecommunications services and circuits at
 existing telecom-         more than 4,400 facilities. FAA re-baselined FTI in December
 munications networks      2004, increasing lifecycle costs from $1.9 billion to $2.4 billion
 with one new network      and adding 5 years to the life of the program. However, FTI is
 through a phased          not likely to be completed on schedule in December 2007
 process. A single         because FAA does not have a realistic master schedule or
 provider is               effective transition plan identifying when each site and service
 responsible for           will be accepted, when services will be cut over to FTI, and
 acquiring, operating,     when existing services will be disconnected. Through the end
 and maintaining the       of FY 2005, FTI equipment was installed at about 700 sites,
 new telecommuni-          and only about 3 percent of the 25,000 FTI services were
 cations infrastructure.   operational, leaving a vast amount of costly existing equipment
                           still being sustained. As a result, expected FTI cost reduction
                           benefits are eroding. To address the schedule risk, FAA needs
                           to develop a realistic master schedule and incorporate it into
                           the FTI contract to hold the prime contractor accountable.
                           Successful FTI implementation is critical to many other
                           programs such as SWIM and ERAM.
 Traffic Flow              Traffic Flow Management Infrastructure products and services
 Management (TFM)          are designed to support the Traffic Management Specialists and
 modernizes the            Traffic Management Coordinators to optimize air traffic flow
 hardware and              across the National Air Space System. The specialists and
 software used to          coordinators analyze, plan, and coordinate air traffic flow
 manage the flow of        through continuous coordination with the airlines and the use
 air traffic.              of surveillance sources, weather, automation, and display
                           subsystems.




                                                                                          17
                                                                     Enclosure B

Potential Agency Contributions

The following table provides perspectives on the wide range of research being
conducted at agencies that participate in the JDPO for their specific missions. We
note that only some of the ongoing research will be applicable to the JPDO’s
efforts.

   Agency                              Key Area of Leverage
 DOD              DOD has an extensive and diverse Research and
                  Development (R&D) base, including research in new aircraft,
                  composites, imaging systems, and data exchange systems for
                  all services. DOD has requested $73 billion overall for R&D
                  in FY 2007. The JPDO is particularly interested in DOD’s
                  broadband communication networks, such as the Global
                  Information Grid. DOD planned upgrades to the Global
                  Positioning System Constellation will be critical to civil
                  aviation.
 Commerce /       Commerce is requesting $1.1 billion for research in FY 2007.
 NOAA             NOAA is a part of Commerce and is responsible for the
                  National Weather Service; the National Environmental
                  Satellite, Data and Information Service; and Oceanic and
                  Atmospheric Research. NOAA requested $533 million in
                  FY 2007 for R&D. The JPDO is seeking from NOAA
                  probability weighted forecast capabilities, a national uniform
                  weather database of forecasts and observations, and
                  transparent automatic adjusted traffic management for
                  weather.
 NASA             For years, NASA has conducted the majority of long-term Air
                  Traffic Management research, including automated controller
                  tools and human factors work. NASA has requested
                  $724 million for aeronautical R&D in FY 2007. The JPDO is
                  looking to NASA to develop automated aircraft metering and
                  sequencing and dynamic airspace reconfiguration.
 Department       DHS contributes expertise in the areas of security and net-
 of Homeland      centric initiatives. The Agency has requested $1 billion in
 Security         FY 2007 for Science and Technology R&D. FAA is looking
 (DHS)            to DHS to develop automated passenger and cargo screening,
                  hardened aircraft security, and flight control overrides.




                                                                                18
                                                                     Enclosure C

Integrated Product Teams

IPTs are multi-agency teams that are defining the specific concepts and
capabilities and are coordinating the actions necessary to make possible the
transformation in each of the eight strategies articulated in the NGATS Integrated
Plan. The following provides a listing of the JPDO’s IPTs and the agency
responsible for leading each team.

          1. Develop Airport Infrastructure To Meet the Future Demand – led by
             FAA
          2. Establish an Effective Security System Without Limiting Mobility or
             Civil Liberties – led by DHS
          3. Establish an Agile Air Traffic System – led by NASA
          4. Establish User-Specific Situational Awareness – led by DOD
          5. Establish a Comprehensive Proactive Safety Management Approach
             – led by FAA
          6. Develop Environmental Protection That Allows Sustained Aviation
             Growth – led by FAA
          7. Develop a System-Wide Capability To Reduce Weather Impacts –
             led by Commerce/NOAA
          8. Harmonize Equipage and Operations Globally – led by FAA




                                                                               19
